2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

COCKLE

Legal Briefs

Est. 1923,

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1069

JANSSEN PHARMACEUTICALS, INC.,
JOHNSON & JOHNSON COMPANY, and
JANSSEN RESEARCH AND DEVELOPMENT, LLC,
Petitioners,

v.

AY., etal.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE PRODUCT LIABILITY ADVISORY COUNCIL, INC. IN SUPPORT OF PETITION
FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5850 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of March, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Zz 2 b J
i RENEE J. GOSS 0. OQheedreae— é

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40650.
